       U.S. Department of the Interior
       Office of Inspector General

                                    Audit Report

                      Use of Official Credit Cards,
                  Government of the Virgin Islands




Report No. V-IN-VIS-0104-2003            August 2004
                United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                     Eastern Regional Office
                                   381 Elden Street – Suite 1100
                                     Herndon, Virginia 20170

                                                                                   August 27, 2004

Honorable Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject: Final Audit Report “Use of Official Credit Cards, Government of the Virgin Islands”
         (Report No. V-IN-VIS-0104-2003)

Dear Governor Turnbull:

       The attached report presents the results of our audit of the use of official credit cards by
the Virgin Islands Public Television System, Virgin Islands Water and Power Authority,
University of the Virgin Islands, Virgin Islands Port Authority, Virgin Islands Housing Finance
Authority, Economic Development Authority, Government Employees Retirement System, and
Roy L. Schneider Hospital. The objective of our audit was to determine whether the
Government agencies used official credit cards for only legitimate purposes.

       The legislation, as amended (5 U.S.C. app. 3), creating the Office of Inspector General
requires that we report to Congress semiannually on all reports issued, actions taken to
implement our recommendations, and recommendations that have not been implemented.
Therefore, this report will be added to the next semiannual report.

       We consider all the report recommendations implemented except Recommendations 4
and 5, which are addressed to the University of the Virgin Islands and are considered to be
unresolved. Therefore, we request that your office coordinate with the University to provide a
response that includes the information requested in Appendix 3. The responses should be
provided by September 24, 2004, and be addressed to Mr. Roger La Rouche, Assistant Inspector
General for Audits, Office of Inspector General, U.S. Department of the Interior, 1849 C Street,
NW (MS-5341), Washington, DC 20240; with copies to our Caribbean Field Office, Ron deLugo
Federal Building – Room 207, St. Thomas, VI 00802.

                                                      Sincerely,


                                                      William J. Dolan, Jr.
                                                      Regional Audit Manager
cc: Osbert Potter, General Manager, Virgin Islands Public Television System
    Alberto Bruno Vega, Executive Director, Virgin Islands Water and Power Authority
    Dr. Laverne Ragster, President, University of the Virgin Islands
    Darlan Brin, Executive Director, Virgin Islands Port Authority
    Clifford Graham, Executive Director, Virgin Islands Housing Finance Authority
    Frank Schulberbrant, Chief Executive Officer, Economic Development Authority
    Lawrence Bryan, Administrator, Government Employees Retirement System
    Rodney Miller, Chief Executive Officer, Roy L. Schneider Hospital
EXECUTIVE SUMMARY
                 We audited official credit card charges totaling more than
Lack of Policy   $3.1 million made by eight autonomous agencies of the
Led to Credit    Government of the Virgin Islands during fiscal years 1998 to 2003.
Card Abuse       We found that employees used official government credit cards to
                 buy personal items costing $180,820 and did not always pay for
                 their personal purchases. In the worst case, the former General
                 Manager of the Virgin Islands Public Television System made
                 personal charges totaling $101,370 and reimbursed the Public
                 Television System for only $16,630 over a 6-year period. We also
                 identified charges totaling $339,990 for purported business
                 expenses that were not supported by receipts or other appropriate
                 documentation. Most of the unsupported charges occurred at the
                 Public Television System and the Water and Power Authority.

                 These discrepancies occurred because the agencies generally did
                 not have comprehensive policies and procedures to (1) define the
                 allowable uses of official credit cards, (2) establish strong internal
                 controls to monitor the use of credit cards, and (3) specify the
                 appropriate disciplinary action for misuse of credit cards. We
                 made 11 recommendations to strengthen controls over the use of
                 official credit cards at the eight agencies audited. Based on the
                 responses received to the draft report, we consider 9 of the 11
                 recommendations to be resolved and implemented, and 2
                 recommendations to be unresolved.




                                    i
[This page intentionally left blank.]




                 ii
CONTENTS
                   Background ................................................................................... 1
INTRODUCTION       Objective and Scope ..................................................................... 1
                   Prior Audit Coverage .................................................................... 2


                   Overview....................................................................................... 3
RESULTS OF AUDIT   Virgin Islands Public Television System...................................... 3
                   Virgin Islands Water and Power Authority .................................. 7
                   University of the Virgin Islands.................................................... 9
                   Virgin Islands Port Authority........................................................ 10
                   Virgin Islands Housing Finance Authority ................................... 10
                   Economic Development Authority ............................................... 11
                   Government Employees Retirement System ................................ 11
                   Roy L. Schneider Hospital............................................................ 12


                   ....................................................................................................... 13
RECOMMENDATIONS


                   1. Summary of Audit Coverage ................................................... 16
APPENDICES         2. Responses to Draft Report ....................................................... 17
                   3. Status of Recommendations..................................................... 31




                                               iii
[This page intentionally left blank.]




                 iv
INTRODUCTION
                We identified eight autonomous agencies of the Government of the
BACKGROUND      Virgin Islands that had official credit cards. These agencies were:
                the Virgin Islands Public Television System, the Virgin Islands
                Water and Power Authority, the University of the Virgin Islands,
                the Virgin Islands Port Authority, the Virgin Islands Housing
                Finance Authority, the Economic Development Authority, the
                Government Employees Retirement System, and the Roy L.
                Schneider Hospital. None of the entities within the Executive,
                Legislative, and Judicial branches of the Government or any other
                autonomous agencies had official credit cards.

                We audited credit card charges totaling $3,144,380 made by
                48 cardholders during fiscal years 1998 to 2003. Non-Federal
                funds were used to pay credit card charges at seven of the eight
                agencies audited. The Virgin Islands Public Television System
                used Federal funds received through the Corporation for Public
                Broadcasting to pay credit card charges.


                The objective of our audit was to determine whether the
OBJECTIVE AND   Government agencies used official credit cards only for legitimate
SCOPE           purposes. The scope of audit varied depending on the timeframe
                during which each agency had official credit cards, but generally
                included credit card transactions during fiscal years 1998 through
                2003. We reviewed credit card statements and supporting
                documents for all charges made by 25 cardholders at seven of the
                eight agencies. At the Water and Power Authority, we reviewed
                charges made by 23 cardholders for a random sample of 4 months
                for each year in the audit scope.

                Our audit was conducted in accordance with the “Government
                Auditing Standards,” issued by the Comptroller General of the
                United States. Accordingly, we included such tests of records and
                other auditing procedures that were considered necessary under the
                circumstances. The “Standards” require that we obtain sufficient,
                competent, and relevant evidence to afford a reasonable basis for
                our findings and conclusions.

                As part of our audit, we evaluated the internal controls related to
                the usage of the credit cards and the billing and payment of the
                charges to the extent we considered necessary to accomplish the
                audit objective. Internal control weaknesses identified in these
                areas are discussed in the Results of Audit section of this report.



                                  32
              The recommendations, if implemented, should improve the
              internal controls in these areas.


              The Office of Inspector General has not conducted any prior audits
PRIOR AUDIT   of the use of official credit cards by the Government of the Virgin
COVERAGE      Islands. However, our May 2001 audit report on the operations of
              the Virgin Islands Lottery (No. 01-I-290) disclosed that during the
              period of June 1995 to March 1999, the former Executive Director
              of the Lottery used an official credit card for personal expenses
              totaling about $99,000. As a result of a follow-up criminal
              investigation by our Office of Investigations, the former Executive
              Director pled guilty in U.S. District Court to a charge of wire fraud
              in his embezzlement scheme, was sentenced to 20 months of
              imprisonment and 3 years of supervised release, and was required
              to pay restitution in the amount of $72,614. Our current audit
              disclosed that the Virgin Islands Lottery no longer has any official
              credit cards.




                                 2
RESULTS OF AUDIT
                      Employees used official government credit cards to buy personal
OVERVIEW              items costing $180,820 and did not always pay for their purchases.
                      In the worst case, the former General Manager of the Virgin
                      Islands Public Television System made personal charges of
                      $101,370 and reimbursed only $16,630 over a 6-year period. We
                      also identified charges of $339,990 for purported business
                      expenses that were not supported by any receipts at four agencies.
                      Most of the problems we found occurred at the Public Television
                      System and the Water and Power Authority. We attributed these
                      problems to a lack of comprehensive policies and procedures to
                      (1) define the allowable uses of official credit cards, (2) establish
                      strong internal controls to monitor the use of credit cards, and
                      (3) specify the appropriate disciplinary action for misuse of credit
                      cards. A summary of our audit coverage is presented in the
                      Appendix and our findings at each agency are discussed below.


                      Two WTJX officials, the General Manager and the Chief Engineer,
VIRGIN ISLANDS        held official credit cards during the period of January 1998 to
PUBLIC TELEVISION     September 2003. We examined all charges, totaling $300,000,
SYSTEM (WTJX)         made by the two employees and documented personal charges of
                      $120,890 and purported business charges of $125,160 that were
                      not substantiated by any supporting documents.

Personal and                            Reviewed WTJX Charges
Unsupported Charges
                                           Totaled $300,000
Represented 82% of
Reviewed Charges                                             $53,950
                                                              18%
                             $125,160
                               42%

                                                                                Business
                                                                                Personal
                                                                                Unsupported



                                                              $120,890
                                                                40%


                      Figure 1


                      WTJX paid all credit card bills, including those with personal and
                      unsupported charges, from Federal grant funds received through


                                         3
                     the Corporation for Public Broadcasting (CPB). The terms of the
                     grants restricted the use of grant funds “to augment the capability
                     of CPB-supported public broadcast stations to expand the quality
                     and scope of their services to the community.”

Two WTJX Officials   During the audit period, WTJX’s General Manager made personal
Made Personal        charges totaling $101,370. In addition, the Chief Engineer made
Charges Totaling     personal charges totaling $19,520.
$120,890
                                           WTJX Personal Charges
                                             Totaled $120,890

                                                   $5,240
                                          $9,910

                                                               $39,340           Travel
                                $13,330                                          Groceries
                                                                                 Furniture
                                                                                 Clothing
                                                                                 Jewelry
                                 $15,510                                         Auto Parts
                                                                                 Other

                                                            $19,700
                                               $17,860


                     Figure 2

                     The General Manager’s personal charges consisted of:

                     ¾ $31,430 for airline tickets, car rentals, restaurants, and hotel
                       stays for herself and her family members.

                     ¾ $16,640 for groceries, household items, and beauty products.

                     ¾ $15,510 for clothing and shoes.

                     ¾ $13,330 for jewelry; including $6,200 in three purchases at the
                       same store on the same day.

                     ¾ $9,910 for automotive parts and accessories.

                     ¾ $9,850 for furniture and electronics; including $1,800 for a flat
                       screen television.

                     ¾ $4,700 for miscellaneous purchases such as eye wear,
                       pharmaceutical items, and souvenirs.




                                           4
$10,000 Was Charged    A significant amount of the travel charges coincided with the dates
for Wedding Expenses   of the General Manager’s wedding and honeymoon. For example,
                       travel charges included: $7,945 for her wedding reception at the
                       Sugar Bay Resort on St. Thomas on November 24, 2001; $996 for
                       airfare from St. Thomas to St. Lucia on November 25, 2001; and
                       $1,788 for a stay at the Sandals Resort on St. Lucia from
                       November 25 to 30, 2001.

The General Manager    According to WTJX officials, “past practice” allowed the General
Owed $82,870 at the    Manager to make personal charges on the official credit card with
Time of the Audit      the agreement that she had to pay the bill in full and on time.
                       However, the General Manager made increasing amounts of
                       purchases while making only sporadic payments totaling $16,630.
                       Figure 3 presents a breakdown of charges and payments by year.
                       For example, she made $52,436 in personal charges without
                       making a single payment in 2003. In fact, at the start of our audit
                       she had a total outstanding balance of almost $82,870 in unpaid
                       personal charges.


                                            Charges Compared to Payments
                         $60,000
                                                                                                                         $52,436
                         $50,000

                         $40,000

                         $30,000
                                                                                   $19,997
                         $20,000
                                                                                                      $14,470
                                                                     $6,595                  $7,000             $7,667
                         $10,000
                                   $2,223            $3,777
                                            $1,791            $171            $0                                                   $0
                             $0
                                      1998               1999           2000            2001               2002              2003
                                                                              Fiscal Year

                                                                     Amount Charged         Amount Paid

                       Figure 3

                       We held separate meetings with WTJX’s Board of Directors and
                       the General Manager to discuss our findings. On September 11,
                       2003, the Board of Directors demanded restitution of $84,670 from
                       the General Manager and gave her until September 30, 2003, to
                       make payment in full. The General Manager reimbursed WTJX the
                       $84,670 on September 30, 2003, and a termination letter relieving
                       her of her duties was issued on the same date. However, additional
                       personal charges of $1,870 for the purchase of a television and
                       clothing were included on the October 5, 2003 billing statement.
                       Therefore, a balance of about $70 was still owed to WTJX.




                                                     5
                        The Chief Engineer made personal charges totaling about $19,520
                        and made regular payments to reimburse WTJX for the charges.

$125,160 in             WTJX claimed the remaining $179,110 in credit card charges as
Unsupported Charges     business related expenses. However, the only receipts on file
                        pertained to the payment of WTJX’s cellular telephone bills and
                        training related travel ($53,950). All other credit card charges,
                        totaling $125,160, were approved and processed without the
                        benefit of supporting documentation other than the monthly credit
                        card statements. Cardholders were not required to provide
                        receipts. As a result, there was little assurance that all of these
                        charges were actually business related.

                        In response to the draft of this report, in June 2004 WTJX provided
                        us with documentation to support the official nature of credit card
                        charges totaling $28,970. WTJX officials stated that they were
                        continuing to research their records to locate documentation for the
                        remaining $96,190 in unsupported charges.

WTJX Needs Formal       WTJX did not have any written policies or procedures for the use
Policies and Stronger   of official credit cards during the time period covered by our
Internal Controls       review. We found that it had been the unwritten practice (“past
                        practice”) of the former General Manager and the former Board of
                        Directors to allow WTJX employees with official credit cards to
                        use them for personal expenses on the condition that such personal
                        charges were promptly reimbursed. In order to track these charges,
                        WTJX maintained an accounts receivable ledger to record the
                        personal charges claimed by the General Manager and the Chief
                        Engineer. However, we identified $13,750 in personal charges for
                        the General Manager that had not been recorded in the ledger. The
                        General Manager did not claim these personal charges until after
                        we held a meeting with her to address them on September 17,
                        2003.

                        The Board of Directors did not adequately supervise the use of
                        official credit cards or monitor reimbursement payments.
                        According to WTJX’s bylaws, the Treasurer of the Board of
                        Directors and the General Manager were required to jointly certify
                        all payments in excess of $2,000. The General Manager ignored
                        the bylaws by signing the checks to pay the monthly credit card
                        bills before allowing the Treasurer to certify the payments.
                        According to the Treasurer, the General Manager routinely
                        withheld the credit card statements. In the few instances when the
                        General Manager provided the statements, the Treasurer would
                        certify the credit card statements long after they had already been
                        paid.



                                          6
                      Our audit disclosed that WTJX’s public accountant discovered the
                      personal use of the official credit cards and reported his findings in
                      the fiscal years 2001 and 2002 financial statement audit reports.
                      The General Manager received the 2001 report and concealed her
                      actions by withholding from the Board of Directors the “Schedule
                      of Findings” section of the report, which revealed the misuse of the
                      credit card. Further, the General Manager responded to the
                      recommendations without any input from the Board.1

Corrective Actions    After hearing of our preliminary findings, the Chairperson of the
Taken                 Board of Directors issued a letter dated October 24, 2003, to the
                      Corporation of Public Broadcasting detailing the financial
                      irregularities at the station and the steps taken to correct the
                      situation, including demanding restitution and dismissing the
                      General Manager. Subsequent to our audit, WTJX drafted new
                      policies for official purchases and, at least temporarily,
                      discontinued the official credit card program. We have referred
                      the matter of misuse of official credit cards for investigative
                      follow-up.


                      Twenty-three WAPA officials held credit cards. These included
VIRGIN ISLANDS        members of the Board of Directors, the Executive Director,
WATER AND POWER       Division Directors, and several other key employees. For each
AUTHORITY (WAPA)      cardholder, we selected random samples of 4 months for each year
                      during the period of January 1998 to October 2002. We also
                      reviewed a random sample of 3 months for the employees in 2003.
                      The charges reviewed for all 23 officials totaled $492,500, which
                      included $59,810 in personal charges and $148,110 in unsupported
                      charges.

                      WAPA’s credit card program required the cardholders to pay their
                      individual credit card bills and to submit receipts and vouchers for
                      reimbursement. WAPA reimbursed the cardholders only for the
                      charges specifically identified as official WAPA business. WAPA
                      procedures, however, did not specify the allowable use of credit
                      cards.

$59,810 in Personal   Sixteen WAPA cardholders made personal charges using official
Charges               credit cards in amounts totaling $59,810 for the months included in
                      our sample, as summarized in Figure 4.



                      1
                       The 2002 financial statement audit also had findings addressing the personal
                      charges, but the report had not been provided to the Board prior to our audit.


                                            7
                                            WAPA Personal Charges
                                               Totaled $59,810
                                                     $1,550
                                            $1,720            $430

                                     $6,240
                                                                                 Travel
                                                                                 Groceries

                                   $6,680                                        Clothing
                                                                     $30,900     Other
                                                                                 Car Parts
                                                                                 Furniture
                                                                                 Jewelry
                                     $12,290




                       Figure 4

                       While not prohibited, the use of official government credit cards
                       for personal purchases adversely affected WAPA. Specifically, the
                       credit card company canceled five cards because of non-payment,
                       principally for personal charges totaling $7,020. For example, the
                       Chairperson of the Board of Directors used her credit card to
                       purchase shoes, automotive parts, and the use of a rental car
                       totaling $1,400 in July 2000. For these personal charges, she wrote
                       five separate checks, on five separate occasions, which were all
                       returned by the bank for insufficient funds. Her account was
                       cancelled by the credit card company in January 2001 due to
                       delinquency.

                       Without credit cards, these five WAPA employees could not
                       efficiently conduct official business. Also, the high level of
                       delinquency could negatively impact WAPA’s ability to continue
                       its credit card program.

Additional $9,010 in   In a related matter, the Chairperson’s non-payment of personal
Unsupported Travel     charges, and subsequent card revocation, resulted in her receipt of
Advances               10 travel advances totaling $9,010. However, she did not provide
                       invoices or receipts to support these travel advances. Although
                       WAPA Board policy mandated submission of a full accounting of
                       travel expenses to the Office of the Governing Board, the
                       Chairperson did not prepare any expenditure reports. After several
                       inquiries by the Accounts Payable Supervisor, the Chairperson
                       forwarded four affidavits addressing $3,310 of the $9,010 in
                       advances. The affidavits claimed that she lost all receipts
                       supporting her travel expenses but had spent all the money
                       advanced to her. No expense reports or affidavits were submitted
                       for the remaining $5,700.


                                             8
$148,110 in            We identified credit card charges totaling $148,110 that were not
Unsupported Charges    adequately supported by receipts or vouchers. Of that amount,
                       $124,670 was related to travel expenses charged to the credit card
                       issued to the Director of Human Resources. WAPA personnel
                       who did not have a credit card used the Director’s card to charge
                       travel and training expenses. Those employees traveled with a
                       letter on WAPA letterhead that they presented to the hotels or
                       training centers authorizing the charge of the lodging and training
                       expenses. However, receipts for these charges were rarely
                       forwarded to the Accounts Payable Division. Therefore, the
                       Accounts Payable Division paid the charges based on a summary
                       that was prepared by the Director’s secretary. Because of
                       problems and delays in obtaining receipts from employees, the
                       secretary prepared the summary based on the credit card
                       statements and her knowledge of which employees went to
                       training.


                       Eight UVI officials held credit cards for official use. These
UNIVERSITY OF THE      consisted of the former and current Presidents, the Vice-Presidents,
VIRGIN ISLANDS (UVI)   the Chancellors, and the Provost. We reviewed a total of $407,000
                       in credit card charges during the period of October 2000 to August
                       2003. The UVI officials used the credit cards only for travel
                       related expenses, UVI-related entertainment and hospitality, and
                       the occasional purchase of small supplies. Cardholders approved
                       their own purchases and, in general, submitted copies of their
                       monthly credit card statements, vouchers, and supporting receipts
                       to the Accounting Division for processing. The Accounting
                       Division paid the bills and recorded payments against the
                       appropriate departmental budgets. We found no personal charges
                       made with official UVI credit cards.

$56,000 in             We did find that credit card charges totaling about $56,000 were
Unsupported Charges    not adequately supported by vouchers or receipts. The majority of
                       those charges were made at the end of fiscal year 2001. According
                       to Accounting Division employees, they processed the payments
                       without the benefit of receipts in order to close out the fiscal year
                       records. However, we found no evidence that the Accounting
                       Division later followed up to obtain the missing receipts.




                                          9
$5,300 in Charges for   Although UVI had policies regarding the use of official credit
Airline Upgrades and    cards, these policies did not address airline upgrades and club
Airline Club            memberships. For example, we noted that the former President
Memberships             and a current Vice President purchased airline upgrades and paid
                        airline club membership dues, and the current President paid
                        airline club membership dues. All of these charges totaled $5,300.
                        By way of comparison, these types of travel expenses are not paid
                        by the Federal Government.


                        Four VIPA officials held credit cards for official use. These
VIRGIN ISLANDS
                        consisted of the Executive Director, the Director of Administration
PORT AUTHORITY
                        and Finance, and the Purchasing Supervisors of the St. Thomas and
(VIPA)
                        St. Croix offices. We reviewed charges totaling $1.2 million
                        during the period of October 1997 to September 2003. We found
                        no personal or unsupported charges made with official VIPA credit
                        cards.

$3,870 in Charges for   Although all charges were supported and related to VIPA business,
Gifts for Departing     we noted several instances in which VIPA used a credit card to
Board Members           purchase expensive gifts for departing members of the Board of
                        Directors and retiring employees. Those charges included:

                        ¾ $2,250 for three $450 watches and a $900 camcorder for three
                          departing Board members.

                        ¾ $1,200 for three $400 jeweled pendants and chains for three
                          retiring employees.

VIPA Needs to           We do not question the gesture of presenting departing employees
Establish Internal      or officials with tokens of appreciation. However, VIPA should
Policies for Credit     develop procedures to limit the use of public funds for these
Cards and Gifts to      occasions to a reasonable level. In that regard, VIPA’s credit card
Employees               program is based on the Federal credit card program administered
                        by the U.S. General Services Administration (GSA), and VIPA
                        used general guidelines developed by GSA. For the allowable use
                        of credit cards, the GSA guidelines refer readers to internal agency
                        policies. VIPA, however, did not have detailed internal policies
                        and procedures concerning the allowable use of official credit
                        cards.

                        Three VIHFA officials held credit cards for official use. These
VIRGIN ISLANDS          were the Executive Director, the acting Assistant Executive
HOUSING FINANCE         Director, and the Office Manager. We reviewed charges totaling
AUTHORITY (VIHFA)       $98,350 made from October 1997 to July 2003. We found that
                        most charges to VIHFA’s credit cards were for official purposes.



                                          10
$10,720 in            We could not review charges totaling $7,850 because four monthly
Unsupported Charges   credit card statements could not be found. We were able to
                      determine the amounts charged in those four months by identifying
                      the beginning balance amounts shown in the following months’
                      statements. We also noted that charges totaling $2,870 were not
                      adequately supported by invoices, vouchers, or receipts. Therefore,
                      unsupported charges totaled $10,720.

                      Although, VIHFA’s policies and procedures currently allow the
                      use of official credit cards for personal charges, we did not find
                      any personal charges on the official credit cards.


                      Four officials of the EDA held credit cards for official use. These
ECONOMIC              consisted of the Chief Executive Officer, the Director of
DEVELOPMENT           Administration and Finance, the Assistant Director, and the
AUTHORITY (EDA)       President of the Board of Directors. We reviewed all $59,570 in
                      charges made during the period of June 2002 to July 2003.

                      We noted one instance in which an EDA cardholder used his credit
                      card to make a personal purchase in the amount of $120 while on
                      travel status. The cardholder reimbursed EDA for this charge. We
                      found no unsupported charges made with official EDA credit
                      cards.

                      Although EDA credit card policy stated that official credit cards
                      were to be used only for travel expenses, cardholders made six
                      non-travel purchases totaling $8,670. These purchases were of an
                      official nature and were approved by either the Chief Executive
                      Officer or the Director of Administration and Finance. We believe
                      that EDA should enforce its policy or revise it to allow for non-
                      travel purchases of an official nature. Also, the policy should be
                      revised to prohibit the use of the credit cards for personal
                      purchases.


                      The Administrator and the Chief Financial Officer of GERS held
GOVERNMENT            official credit cards. We reviewed all $494,360 in credit card
EMPLOYEES             charges during the period of January 1999 to September 2003.
RETIREMENT            GERS had formal policies and procedures regarding the allowable
SYSTEM (GERS)         uses of official credit cards that included the appropriate
                      disciplinary actions for any misuse of the cards. We found that all
                      charges to GERS credit cards were for appropriate official
                      purposes and were properly supported.




                                        11
                   The Hospital’s Chief Executive Officer and the Chief Operating
ROY L. SCHNEIDER   Officer held credit cards for official use. We reviewed all $92,600
HOSPITAL           in credit card charges during the period of January 2003 to
(HOSPITAL)         September 2003. Although we found that all charges to credit
                   cards were for appropriate official purpose and were properly
                   supported, the Hospital did not have any policies and procedures
                   regarding the allowable uses of official credit cards. The
                   Hospital’s credit card program was in its infancy and had only
                   existed for 9 months at the time of our audit. The Hospital should
                   implement policies and procedures to administer the credit card
                   program to ensure that it continues to run effectively.




                                    12
RECOMMENDATIONS
          We recommend that the Board of Directors of the Virgin Islands
          Public Television System:

            1. Develop and implement formal policies and procedures to
          (a) define the allowable uses of official credit cards, (b) establish
          strong internal controls to monitor the use of credit cards,
          (c) require the submission of receipts to support credit card
          charges, and (d) specify the appropriate disciplinary action for
          misuse of credit cards. Such policies and procedures should
          prohibit the use of official credit cards for personal purposes and
          provide strict disciplinary action for any such personal use.


          We recommend that the Board of Directors of the Virgin Islands
          Water and Power Authority:

            2. Develop and implement formal policies and procedures to
          (a) define the allowable uses of official credit cards, (b) establish
          strong internal controls to monitor the use of credit cards,
          (c) require the submission of receipts to support credit card
          charges, and (d) specify the appropriate disciplinary action for
          misuse of credit cards. Such policies and procedures should
          prohibit the use of official credit cards for personal purposes and
          provide strict disciplinary action for any such personal use.

            3. Enforce existing policies and procedures that require the
          submission of vouchers and receipts to support the use of travel
          advances given to officials and employees. Also, obtain
          supporting documentation from the Chairperson for the remaining
          $5,700 in outstanding travel advances.


          We recommend that the Board of Directors of the University of the
          Virgin Islands:

            4. Revise its credit card policies and procedures to provide
          guidance on the types of charges that are allowable, including
          addressing whether airline upgrades and airline club memberships
          are to be considered allowable.




                             13
  5. Enforce existing policies and procedures that require the
submission of vouchers and receipts to support charges made
against official credit cards.


We recommend that the Board of Directors of the Virgin Islands
Port Authority:

  6. Develop and implement formal policies and procedures to
(a) define the allowable uses of official credit cards, (b) establish
strong internal controls to monitor the use of credit cards,
(c) require the submission of receipts to support credit card
charges, and (d) specify the appropriate disciplinary action for
misuse of credit cards. Such policies and procedures should
prohibit the use of official credit cards for personal purposes and
provide strict disciplinary action for any such personal use.

  7. Develop and implement policies and procedures that clearly
define the conditions under which gifts may be given to departing
Board members and retiring employees. Such policies and
procedures should set a reasonable dollar limit on the value of such
gifts.


We recommend that the Board of Directors of the Virgin Islands
Housing Finance Authority:

  8. Revise its credit card policies and procedures to (a) prohibit
the use of official credit cards for personal charges and (b) specify
the appropriate disciplinary action for any such personal use.

  9. Enforce existing policies and procedures that require the
submission of vouchers and receipts to support charges made
against official credit cards.


We recommend that the Board of Directors of the Economic
Development Commission:

 10. Revise its credit card policies and procedures to (a) prohibit
the use of official credit cards for personal charges and (b) allow
the use of official credit cards for small purchases that are
approved in advance by the Chief Executive Officer.




                   14
                We recommend that the Board of Directors of the Roy L.
                Schneider Hospital:

                 11. Develop and implement formal policies and procedures to
                (a) define the allowable uses of official credit cards, (b) establish
                strong internal controls to monitor the use of credit cards,
                (c) require the submission of receipts to support credit card
                charges, and (d) specify the appropriate disciplinary action for
                misuse of credit cards. Such policies and procedures should
                prohibit the use of official credit cards for personal purposes and
                provide strict disciplinary action for any such personal use.


                We received responses (see Appendix 2) from all seven agencies to
AUDITEE         which recommendations were addressed. In most cases, the
RESPONSES AND   agencies concurred with the recommendations and indicated that
OIG REPLY       corrective actions either had been or would be taken.

                The response from the University of the Virgin Islands noted that
                the University’s current President did not use official credit cards
                to upgrade airline travel to first class. We agree and have adjusted
                the body of the report to reflect this information. The University’s
                response also pointed out that the University had only 477 full-
                time employees, whereas we had stated in Appendix 1 that the
                University had more than 1,000 employees. Our number included
                part-time employees, and we have modified Appendix 1
                accordingly.

                Finally, the University’s response stated that the report would be
                used to “refine” policies regarding the use of credit cards but did
                not specifically address the corrective actions contemplated by
                Recommendations 4 and 5. Based on all responses received, we
                consider Recommendations 1, 2, 3, 6, 7, 8, 9, 10, and 11 to be
                resolved and implemented, and Recommendations 4 and 5 to be
                unresolved (see Appendix 3).




                                   15
APPENDIX 1 – SUMMARY OF AUDIT COVERAGE

  Agency      Number of       Number of                            Credit Card Charges
  Audited     Employees      Cardholders       Audited           Other        Unsupported       Business

 WTJX1               35              2         $300,000           $120,8902         $125,160       $53,950
 WAPA               601             23           492,500            59,8102          148,110       284,580
 UVI                477              8           407,000             5,3003           56,000       345,700
 VIPA               317              4         1,200,000             3,8704                0     1,196,130
 VIHFA               20              3            98,350                 0            10,720        87,630
 EDA                 26              4            59,570               1202                0        59,450
 GERS                75              2           494,360                 0                 0       494,360
 Hospital           530              2            92,600                 0                 0        92,600

 Totals           2,081             48        $3,144,380          $189,990          $339,990    $2,614,400
__________
Notes:
 1
   WTJX amounts represent Federal funds. All other amounts represent Virgin Islands funds.
 2
   These charges represent personal charges totaling $180,820.
 3
   These charges represent airline upgrade and club membership fees.
 4
   These charges represent gifts presented to departing board members and retiring employees.




                                                       16
APPENDIX 2 – RESPONSES TO DRAFT REPORT




                     17
      Appendix 2
     Page 2 of 14




18
      Appendix 2
     Page 3 of 14




19
      Appendix 2
     Page 4 of 14




20
      Appendix 2
     Page 5 of 14




21
      Appendix 2
     Page 6 of 14




22
      Appendix 2
     Page 7 of 14




23
      Appendix 2
     Page 8 of 14




24
      Appendix 2
     Page 9 of 14




25
       Appendix 2
     Page 10 of 14




26
       Appendix 2
     Page 11 of 14




27
       Appendix 2
     Page 12 of 14




28
       Appendix 2
     Page 13 of 14




29
       Appendix 2
     Page 14 of 14




30
APPENDIX 3 – STATUS OF RECOMMENDATIONS

Finding/Recommendation
       Reference              Status                       Action Required

         1 to 3          Resolved and        No further response required.
        6 to 11          implemented.

                         Unresolved.         Reconsider the recommendations and
        4 to 5                               provide a response that includes a plan of
                                             action, including target dates and titles of the
                                             officials responsible for implementation of
                                             corrective action.




                                        31
[This page intentionally left blank.]




                  32
